                                                 U. S. Department of Housing and Urban Development
                                                                   Office of Inspector General
                                                                                             Region X
                                                                               Federal Office Building
                                                                           909 First Avenue, Suite 126
                                                                     Seattle, Washington 98104-1000
                                                                                       (206) 220-5360
                                                                                  Fax (206) 220-5162



                                                                           AUDIT REPORT
                                                                        MEMORANDUM NO.
                                                                             2009-SE-1801

November 18, 2008


MEMORANDUM FOR:              Dane M. Narode, Acting Associate General Counsel for Program
                             Enforcement, CEP



FROM:                        Joan S. Hobbs
                             Regional Inspector General for Audit, 0AGA

SUBJECT:                     Actions under Program Fraud Civil Remedies Act
                             Washington Mutual Bank
                             Seattle, Washington


                                      INTRODUCTION

We audited late endorsement payment histories at Washington Mutual Bank (Washington
Mutual), Seattle, Washington. We selected Washington Mutual because of its high number of
late single-family loan submissions for Federal Housing Administration insurance during
calendar years 2002 and 2003. Our objective was to determine whether Washington Mutual’s
late requests for endorsement complied with the U.S. Department of Housing and Urban
Development’s (HUD) payment history requirements. We reported the results of our review in
Audit Report 2005-SE-1006, issued on July 5, 2005. After the audit report was issued and the
report recommendations were closed out in HUD’s Audit Resolution and Corrective Actions
Tracking System (ARCATS), we recommended that your office take additional sanctions against
Washington Mutual under the Program Fraud Civil Remedies Act for submission of false loan
certifications.

                              METHODOLOGY AND SCOPE

During our original audit work, we analyzed data on all loans having a closing date from January
2002 through June 2004 submitted by Washington Mutual for Federal Housing Administration
insurance that were submitted 66 or more days after closing. After obtaining and reconciling the
electronic records from HUD and Washington Mutual, we tested for the presence of
unacceptable payment histories on loans submitted as late requests for insurance endorsement.
As noted in Audit Report 2005-SE-1006, our review of the payment histories provided by
Washington Mutual and endorsement data from HUD’s systems showed that for the 37,648 loans
with late endorsement requests tested, Washington Mutual submitted 609 loans with
unacceptable payment histories.

In order to determine if Washington Mutual should be penalized for false certifications under the
Program Fraud Civil Remedies Act, we conducted further analysis of the payment history data
obtained from Washington Mutual. We found that Washington Mutual’s own data showed that
the payment histories for 128 of the 609 loans did not meet the FHA late submission
requirements when it turned in the loans to FHA for insurance. We then reviewed the FHA case
files of these 128 loans to determine if they contained certifications by Washington Mutual that
the loans had payment histories that met HUD’s requirements for late endorsement submission.

                                       BACKGROUND

 Washington Mutual has an administrative office in Seattle, Washington and is a supervised
 direct endorsement lender approved to originate Federal Housing Administration-insured
 single-family loans. In a series of acquisitions beginning in 2001, Washington Mutual acquired
 two federal savings banks that had mortgage lending operations: Bank United and The Dime
 Savings Bank of New York, FSB, which owned North American Mortgage Company.
 Washington Mutual also acquired three other mortgage companies: PNC Mortgage
 Corporation of America, Fleet Mortgage Corporation, and HomeSide Lending, Incorporated.
 From 2000 to 2003, Washington Mutual’s total home lending and refinancing for conventional
 and insured mortgages increased from $51.5 billion to $384.2 billion; it decreased to $212.4
 billion in 2004.

 During the period from March 2002 to October 2004, Washington Mutual submitted 64,905
 Federal Housing Administration loans worth $7.4 billion with closing dates from January 2002
 through June 2004 to HUD for insurance.

                                   RESULTS OF REVIEW

Our review of certifications in the FHA files of the 128 loans in which Washington Mutual’s
data showed that the payment histories did not meet the FHA late submission requirements at the
time it submitted the loans for FHA insurance found that:

   Forty five loan files contained certifications that the loans were current in conformance with
   the applicable late submission requirements;
   Eight loan files contained certifications that were dated a substantial amount of time prior to
   submission to FHA or the date of the payment history;
   Seven loan files had certifications that did not state that the loans were current;
   Four loan files did not have any certifications that the loans were current in conformance
   with the late submission requirements.



                                                2
Based upon the above results, we worked with your office to help you determine the amount of
penalties to assess Washington Mutual under the Program Fraud Civil Remedies Act. As a result
of these actions, HUD determined that Washington Mutual was liable under the Program Fraud
Civil Remedies Act for 14 loans and entered into a settlement agreement with Washington
Mutual on October 2, 2008.

The settlement agreement required Washington Mutual to make an administrative payment to
HUD of $91,978. However, the recommendations from our audit report have been closed out in
HUD’s tracking system and did not include this settlement.


                                  RECOMMENDATION

We recommend that HUD’s Associate General Counsel for Program Enforcement

1A. Post the $91,978 settlement to HUD’s Audit Resolution and Corrective Actions Tracking
    System.




                                             3
